                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-01971-245




    Combined Assessment Program 

             Review of the 

   James A. Haley Veterans’ Hospital 

            Tampa, Florida 





July 18, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CPC            Comprehensive Pain Center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       James A. Haley Veterans’ Hospital
                 FY             fiscal year
                 HPC            hospice and palliative care
                 IC             infection control
                 MH             mental health
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 OR             operating room
                 PCCT           Palliative Care Consult Team
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                 CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     5

  Medication Management – CS Inspections .............................................................                             8

  Coordination of Care – HPC ...................................................................................                  10

  Pressure Ulcer Prevention and Management .........................................................                              11

  Nurse Staffing .........................................................................................................        13

  Construction Safety.................................................................................................            14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 17

  C. VISN Director Comments ..................................................................................                    18

  D. Facility Director Comments ...............................................................................                   19

  E. OIG Contact and Staff Acknowledgments .........................................................                              25

  F. Report Distribution .............................................................................................            26

  G. Endnotes ...........................................................................................................         27





VA OIG Office of Healthcare Inspections
                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings. We conducted the review the week of June 3, 2013.

Review Results: The review covered seven activities.                            We     made     no
recommendations in the following three activities:

   Coordination of Care – Hospice and Palliative Care

   Pressure Ulcer Prevention and Management

   Nurse Staffing

The facility’s reported accomplishments were implementation of an innovative
medication safety curriculum and the Comprehensive Pain Center, which offers
interdisciplinary pain rehabilitation programs.

Recommendations: We made recommendations in the following four activities:
Quality Management: Ensure that all services are included in the review of electronic
health record quality and that the results of non-VA purchased diagnostic tests are
consistently scanned into electronic health records.

Environment of Care: Ensure that Environment of Care Committee minutes reflect
identified mental health unit deficiencies, corrective actions taken, and tracking of
corrective actions to closure. Secure sterile storage rooms and chemicals stored on the
hemodialysis unit at all times. Ensure that the Sterile Processing Service eyewash
station is checked weekly, that the decontamination area is clean, and that initial
training and competency validation is documented for staff who reprocess reusable
medical equipment. Require that operating room staff who perform immediate use
sterilization have initial training and competency validation documented and that staff
competency validation results and results of compliance with reusable medical
equipment standard operating procedures are reported to the Clinical Executive Board.

Medication Management – Controlled Substances Inspections: Ensure that monthly
controlled substances findings summaries and quarterly trend reports are provided to
the facility Director consistently and timely and that all non-pharmacy areas with
controlled substances are inspected monthly.

Construction Safety: Ensure that infection control and tuberculosis risk assessments are
conducted prior to construction project initiation and that infection surveillance activities
for construction projects are conducted and documented in Infection Control Committee
minutes.




VA OIG Office of Healthcare Inspections                                                           i
                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 18–24, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following seven activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

   	   Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
June 3, 2013, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations
we made in our previous CAP report (Combined Assessment Program Review of the
James A. Haley Veterans’ Hospital, Tampa, Florida, Report No. 08-03090-160,
July 1, 2009).




VA OIG Office of Healthcare Inspections                                                          1
                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


During this review, we presented crime awareness briefings for 136 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
1,074 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Institute for Safe Medication Practices Award
In 2012, the facility received an award from the Institute for Safe Medication Practices
for demonstrating a standard of excellence for prevention of medical errors. The facility
developed and implemented a curriculum that emphasizes medication safety and error
prevention. The curriculum was created as part of a larger educational innovation
movement supported by VHA’s Office of Academic Affiliations and is presented to
medical students, residents, staff physicians, nurses, pharmacists, and others.
Learners attend sessions on patient safety, pharmacy processes, human factors
engineering, and identification of potential hazards in a patient’s EOC. The curriculum
includes hands-on experience that follows a medication from order entry through
administration and identifies vulnerabilities and possible solutions. The curriculum also
includes participation in an evaluation of a medication device and simulations of
hazards in a patient’s health care environment. The curriculum has been presented at
numerous national conferences and shared widely within VHA.

CPC
The CPC offers a wide range of treatment options through its interdisciplinary pain
rehabilitation programs, outpatient medical clinics, and interventional medical services.
Treatment focuses on improving physical function and quality of life for veterans
experiencing chronic pain.       Accredited by the Commission on Accreditation of
Rehabilitation Facilities, the CPC has the only inpatient pain treatment program in VHA
and includes physical therapy, occupational therapy, recreational therapy, aquatic
therapy, psychology, and medical management. The CPC was among the first to
identify common co-morbidities of pain and emotional issues among returning Iraq and
Afghanistan war veterans and now has a program specifically for this population. As
the largest pain management center in the VA system, the CPC has received numerous
accolades, including the VA’s Olin E. Teague Award and the American Pain Society’s
Clinical Centers of Excellence in Pain Management Award. The CPC serves as a
model and training site for VA interdisciplinary pain programs.


VA OIG Office of Healthcare Inspections                                                          2
                                             CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
 X     There was an EHR quality review committee,        Six months of EHR Committee meeting minutes
       and the review process complied with              were reviewed:
       selected requirements.                             Not all services were included in review of
                                                            EHR quality.
       The EHR copy and paste function was
       monitored.


VA OIG Office of Healthcare Inspections                                                                  3
                                             CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


 NC            Areas Reviewed (continued)                                     Findings
  X    Appropriate quality control processes were in     EHRs of 28 patients who had non-VA purchased
       place for non-VA care documents, and the          diagnostic tests reviewed:
       documents were scanned into EHRs.                  Test results of 5 patients were not scanned
                                                            into the EHRs.
       Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that all services are included
in the review of EHR quality.

2. We recommended that processes be strengthened to ensure that the results of non-VA
purchased diagnostic tests are consistently scanned into EHRs.




VA OIG Office of Healthcare Inspections                                                                  4
                                              CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected the surgical intensive care, the oncology, the telemetry, the surgical, one CLC,
one spinal cord injury, the hemodialysis, two locked inpatient MH, and the post-anesthesia care
units.    We also inspected the emergency department, the chemotherapy clinic, the
interventional radiology area, the OR, and the SPS area. Additionally, we reviewed
30 employee training and competency files (10 hemodialysis, 10 OR, and 10 SPS). The table
below shows the areas reviewed for this topic. The areas marked as NC needed improvement.
Any items that did not apply to this facility are marked NA.

 NC          Areas Reviewed for General EOC                                   Findings
  X    EOC Committee minutes reflected sufficient        Six months of EOC Committee meeting minutes
       detail regarding identified deficiencies,         reviewed:
       corrective actions taken, and tracking of          Minutes did not reflect sufficient discussion of
       corrective actions to closure.                       deficiencies identified on the MH units,
                                                            corrective actions taken, or tracking of actions
                                                            to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.        In two areas, sterile storage rooms were
                                                           unlocked.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
            Areas Reviewed for Hemodialysis
       The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.




VA OIG Office of Healthcare Inspections                                                                    5
                                              CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


             Areas Reviewed for Hemodialysis
 NC                       (continued)                                        Findings
       Monthly biological water and dialysate testing
       were conducted and included required
       components, and identified problems were
       corrected.
       Employees received training on bloodborne
       pathogens.
       Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 X     Selected EOC/infection prevention/safety            Two carts had unsecured chemicals.
       requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
 X     The facility used an interdisciplinary approach    Two quarters of Clinical Executive Board
       to monitor compliance with established RME         minutes reviewed:
       processes, and RME-related activities were          Minutes did not include RME competency
       reported to an executive-level committee.            validation results and results of compliance
                                                            with established SOPs.
       The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
 X     Employees received required RME training           SPS staff competency validation documentation
       and competency assessment.                         reviewed for two different RME items per
                                                          employee:
                                                           Five SPS employees did not have current
                                                             competency validation for selected RME.
                                                           Initial training was not documented for three
                                                             SPS employees on duty for less than or equal
                                                             to 2 years for selected RME.
 X     OR employees who performed immediate use            Four OR staff did not have initial training
       (flash) sterilization received training and           and/or competency validation documented for
       competency assessment.                                flash sterilization.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
 X     Selected infection prevention/environmental         The eyewash station in SPS was not
       safety requirements were met.                        inspected weekly.
                                                           The SPS decontamination area was dirty.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.



VA OIG Office of Healthcare Inspections                                                                    6
                                          CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


 NC     Areas Reviewed for SPS/RME (continued)                           Findings
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

3. We recommended that processes be strengthened to ensure that EOC Committee minutes
reflect deficiencies identified on the MH units, corrective actions taken, and tracking of corrective
actions to closure.

4. We recommended that processes be strengthened to ensure that sterile storage rooms are
secured at all times and that compliance be monitored.

5. We recommended that processes be strengthened to ensure that chemicals stored on the
hemodialysis unit are secured at all times and that compliance be monitored.

6. We recommended that processes be strengthened to ensure that staff competency
validation results and results of compliance with RME SOPs are reported to the Clinical
Executive Board.

7. We recommended that processes be strengthened to ensure that SPS employees
responsible for reprocessing activities have initial training and annual competency validation
documented.

8. We recommended that processes be strengthened to ensure that OR employees who
perform immediate use sterilization have initial training and annual competency validation
documented.

9. We recommended that processes be strengthened to ensure that the SPS eyewash station
is checked weekly and that compliance be monitored.

10. We recommended that processes be strengthened to ensure that the SPS decontamination
area is clean.




VA OIG Office of Healthcare Inspections                                                               7
                                            CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL




Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of the CS Coordinator and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
 X     Monthly CS inspection findings summaries         CS inspection monthly summaries for the past
       and quarterly trend reports were provided to     6 months and quarterly trend reports for the past
       the facility Director.                           4 quarters reviewed:
                                                         Summaries and reports were not consistently
                                                           or timely provided to the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
 X     Non-pharmacy areas with CS were inspected        Inspection documentation for 10 CS areas for
       in accordance with VHA requirements, and         the past 6 months reviewed:
       inspections included all required elements.       One monthly inspection was missed in nine
                                                           different CS areas.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 8
                                          CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


Recommendations

11. We recommended that processes be strengthened to ensure that monthly CS findings
summaries and quarterly trend reports are provided to the facility Director consistently and
timely.

12. We recommended that processes be strengthened to ensure that all non-pharmacy areas
with CS are inspected monthly and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                               9
                                             CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 18 EHRs of patients who had PCCT consults (including
8 HPC inpatients), and 25 employee training records (10 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

 NC                     Areas Reviewed                                      Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                                 10
                                            CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 28 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
8 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected three patient rooms. The table below shows the areas reviewed for
this topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

 NC                     Areas Reviewed                                     Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
       Staff were generally consistent in
       documenting location, stage, risk scale score,
       and date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                11
                                            CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


 NC            Areas Reviewed (continued)                                  Findings
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                12
                                             CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, MH, and long-term care).6

We reviewed relevant documents and 25 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute medical/surgical
unit 4 North, MH unit ARC-1, and the CLC unit for 52 randomly selected days (holidays,
weekdays, and weekend days) between October 1, 2012, and March 31, 2013. The table below
shows the areas reviewed for this topic. Any items that did not apply to this facility are marked
NA. The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                       Findings
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
       The unit-based expert panels followed the
       required processes and included all required
       members.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 13
                                           CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


Construction Safety
The purpose of this review was to determine whether the facility maintained IC and safety
precautions during construction and renovation activities in accordance with applicable
standards.7

We inspected the CLC construction project. Additionally, we reviewed relevant documents and
15 training records (4 contractor records and 11 employee records), and we conversed with key
employees and managers. The table below shows the areas reviewed for this topic. The areas
marked as NC needed improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
       There was a multidisciplinary committee to
       oversee IC and safety precautions during
       construction and renovation activities and a
       policy outlining the responsibilities of the
       committee, and the committee included all
       required members.
 X     IC, preconstruction, interim life safety, and   Risk assessments reviewed:
       contractor tuberculosis risk assessments were    IC and tuberculosis risk assessments were
       conducted prior to project initiation.             not conducted prior to project initiation.
 NA    There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
       Site inspections were conducted by the
       required multidisciplinary team members at
       the specified frequency and included all
       required elements.
 X     IC Committee minutes documented infection       Eight months of IC Committee minutes
       surveillance activities associated with the     reviewed:
       project and any interventions.                   There was no documentation of infection
                                                          surveillance activities related to the project.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
       Contractors and designated employees
       received required training.
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                     14
                                          CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL



Recommendations

13. We recommended that processes be strengthened to ensure that IC and tuberculosis risk
assessments are conducted prior to construction project initiation.

14. We recommended that processes be strengthened to ensure that infection surveillance
activities related to construction projects are conducted and documented in IC Committee
minutes.




VA OIG Office of Healthcare Inspections                                                              15
                                             CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL
                                                                                               Appendix A


       Facility Profile (Tampa/673) FY 2013 through April 2013a
Type of Organization                                                               Tertiary
Complexity Level                                                                   1a-High complexity
Affiliated/Non-Affiliated                                                          Affiliated
Total Medical Care Budget in Millions                                              $712.3
Number (through May 2013) of:
    Unique Patients                                                               77,296
    Outpatient Visits                                                             760,446
    Unique Employeesb                                                             3,528
Type and Number of Operating Beds:
    Hospital                                                                      407
    CLC                                                                           64
    MH                                                                            33
Average Daily Census:
    Hospital                                                                      275
    CLC                                                                           54
    MH                                                                            28
Number of Community Based Outpatient Clinics                                       3
Location(s)/Station Number(s)                                                      Lakeland/673GB
                                                                                   Brooksville/673GC
                                                                                   Zephyrhills/673GF
VISN Number                                                                        8




a
    All data is for FY 2013 through April 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                 16
                                         CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL
                                                                                           Appendix B


                           VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                      Inpatient Scores                              Outpatient Scores
                          FY 2012                                       FY 2012
                Inpatient       Inpatient       Outpatient       Outpatient       Outpatient       Outpatient
                Score           Score           Score            Score            Score            Score
                Quarters 1–2    Quarters 3–4    Quarter 1        Quarter 2        Quarter 3        Quarter 4
    Facility    59.9            65.5            65.4             52.3             57.6             63.1
    VISN        67.9            67.3            59.4             56.5             55.4             56.5
    VHA         63.9            65.0            55.0             54.7             54.3             55.0



                        Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                Mortality                                      Readmission
               Heart Attack    Heart            Pneumonia       Heart Attack     Heart            Pneumonia
                               Failure                                           Failure
    Facility   13.8            11.2             10.9            25.0             28.9             22.5
    U.S.
    National   15.5            11.6             12.0            19.7             24.7             18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                         17
                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs 	                                 Memorandum


       Date:           July 8, 2013 


       From:           Director, VA Sunshine Healthcare Network (10N8) 


       Subject:        CAP Review of the James A. Haley Veterans’ Hospital, 

                       Tampa, FL

       To: 	           Director, Bay Pines Office of Healthcare Inspections (54SP)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed and concur with the findings and recommendations in
          the report of the Combined Assessment Program Review.

       2. Corrective action plans have been established with planned completion
          dates, as detailed in the attached report.




           Thomas Wisnieski, MPA, FACHE




VA OIG Office of Healthcare Inspections                                                         18
                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           July 1, 2013 


       From:           Director, James A. Haley Veterans’ Hospital (673/00) 


       Subject:        CAP Review of the James A. Haley Veterans’ Hospital,

                       Tampa, FL

       To:             Director, VA Sunshine Healthcare Network (10N8)

       1. I have reviewed and concur with the findings and recommendations in
          the report of the OIG CAP Review.
       2. Corrective action plans have been established with planned completion
          dates, as detailed in the attached report.




           Kathleen R. Fogarty




VA OIG Office of Healthcare Inspections                                                         19
                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
all services are included in the review of EHR quality.

Concur

Target date for completion: October 4, 2013

Facility response: The MRRC has been tracking clinical pertinence reviews monthly and
reporting results to the CEB quarterly. One surgical specialty, neurosurgery, had been
consistently not performing these reviews. The Chief of Surgery assigned responsibility
for these reviews to one neurosurgeon who will begin performing these reviews in
July 2013. The Surgical Service Performance Improvement Registered Nurse tracks
completion of these reviews and forwards them to the MRRC monthly. The Chief of
Surgery will report monthly to the CEB, beginning on July 11, 2013, the status of the
neurosurgical clinical pertinence reviews until 90 percent compliance is met.

Recommendation 2. We recommended that processes be strengthened to ensure that
the results of non-VA purchased diagnostic tests are consistently scanned into EHRs.

Concur

Target date for completion: October 9, 2013

Facility response: Post OIG, a review of the five (5) records that were missing
information were reviewed by the Fee Basis staff. The scanned documents were found
in CPRS/vista imaging on 4 of the 5 records. One record was found to be missing the
scanned information. The HIMS staff will provide training on proper scanning
procedures to the Fee Basis staff for ease in locating these documents. Monitoring of
records will show greater than 95 percent of NVCC pts will have appropriate medical
records scanned into CPRS. This information will be presented monthly to the PIC until
95 percent compliance is attained.

Recommendation 3. We recommended that processes be strengthened to ensure that
EOC Committee minutes reflect deficiencies identified on the MH units, corrective
actions taken, and tracking of corrective actions to closure.

Concur

Target date for completion: October 10, 2013



VA OIG Office of Healthcare Inspections                                                         20
                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


Facility response: The EOC MH checklist was being completed by the MH
Multidisciplinary Safety Inspection with items tracked to completion, reviewed by the
ACOS/MH&BS, and forwarded to the VISN on a quarterly basis; however, it was not
brought to the EOC Committee for discussion and tracking. The EOC MH Checklist is
now a standing agenda item for the EOC Committee on a quarterly basis. On
June 13, 2013, the EOC MH checklist was presented to the EOC Committee. All open
items will be tracked to completion through the EOC committee on a monthly basis for
four months and then on a quarterly basis.

Recommendation 4. We recommended that processes be strengthened to ensure that
sterile storage rooms are secured at all times and that compliance be monitored.

Concur

Target date for completion: October 10, 2013

Facility response: On June 14, 2013, the 4 South storage room lock was changed to
key only access and change of shift handoff by 4S Charge Nurses was implemented to
ensure the storage room is secured (locked) and in appropriate order. Monitoring of the
storage room will be performed and reported to the EOC monthly for four months until
95 percent compliance is met.

On June 4, 2013, the staff in the Interventional Radiology suite were educated to keep
the storage room closed and locked. The Nurse Manager will be responsible for
ensuring that staff keep the storage door closed and locked. Monitoring of storage
room will be performed and reported to the EOC monthly for four months until
95 percent compliance is met.

Recommendation 5. We recommended that processes be strengthened to ensure that
chemicals stored on the hemodialysis unit are secured at all times and that compliance
be monitored.

Concur

Target date for completion: October 10, 2013

Facility response: All dialysis chemicals are now stored in a locked storage room as of
June 7, 2013. The Hemodialysis Nurse Manager will perform random checks for four
months to ensure all dialysis chemicals are locked in the clean supply room. This
information will be reported monthly to the EOC committee monthly for four months.

Recommendation 6. We recommended that processes be strengthened to ensure that
staff competency validation results and results of compliance with RME SOPs are
reported to the Clinical Executive Board.

Concur

Target date for completion: September 5, 2013


VA OIG Office of Healthcare Inspections                                                         21
                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


Facility response: The requirement for including staff competency validation results and
results of compliance has been added to the quarterly RME report to the CEB. The
Associate Director for Patient Care/Nursing Services will continue to provide RME
quarterly reports to the Clinical Executive Board that include the status of completion of
staff competency validation results and compliance results.

Recommendation 7. We recommended that processes be strengthened to ensure that
SPS employees responsible for reprocessing activities have initial training and annual
competency validation documented.

Concur

Target date for completion: August 12, 2013

Facility response: The RME educator position has been vacant for over a year but was
filled (on board) as of July 1, 2013. This person is responsible for ensuring that all
competencies are completed and include relevant equipment. The week of
June 13, 2013, a review of all RME competencies was conducted to determine status of
competencies. The supervisor in RME has been working to update competency folders
to ensure they include the required documentation (still in progress). The Chief Nurse
for SPS will report on compliance for all RME competencies to the RME Committee.

Recommendation 8. We recommended that processes be strengthened to ensure that
OR employees who perform immediate use sterilization receive have initial training and
annual competency validation documented.

Concur

Target date for completion: July 8, 2013

Facility response: Same as Recommendation #7 for RME educator. As of July 3, 3013,
33 of 38 (87 percent) of OR staff have had their competency folders reviewed and
updated to include documentation of initial training for IUSS and annual competency
validation. The Chief Nurse for SPS will report to the RME Committee on the
compliance with IUSS for OR staff competencies.

Recommendation 9. We recommended that processes be strengthened to ensure that
the SPS eyewash station is checked weekly and that compliance be monitored.

Concur

Target date for completion: October 10, 2013

Facility response: The location of this eye wash station is in a remote location and was
overlooked by staff. On June 10, 2013, SPS staff were assigned responsibility for
checking eyewash stations weekly. Compliance for the past four weeks is 100 percent.
Compliance with weekly checks will be reported to the EOC Committee monthly until a
compliance of 95 percent is met for four consecutive months.


VA OIG Office of Healthcare Inspections                                                         22
                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


Recommendation 10. We recommended that processes be strengthened to ensure
that the SPS decontamination area is clean.

Concur

Target date for completion: October 10, 2013

Facility response: A cleaning schedule was developed for the SPS decontamination
area on June 10, 2013. The Assistant Chief SPS and/or Chief Nurse will conduct spot
checks of the decontamination area for cleanliness and report findings to the RME
committee.

Recommendation 11. We recommended that processes be strengthened to ensure
that monthly CS findings summaries and quarterly trend reports are provided to the
facility Director consistently and timely.

Concur

Target date for completion: November 6, 2013

Facility response: Monthly reports will be forwarded to the Director by the 21st day of the
following month. Quarterly trend reports will be forwarded to the Director within 30 days
of the close of the quarter. The timeliness reports will be tracked by the Compliance
Committee beginning August 7, 2013.

Recommendation 12. We recommended that processes be strengthened to ensure
that all non-pharmacy areas with CS are inspected monthly and that compliance be
monitored.

Concur

Target date for completion: November 6, 2013

Facility response: A schedule of inpsections will be made for non-pharmacy areas to
ensure they are inspected as per VHA requirements. Inspection checklist will be
amended to include all required elements. The CSC will report to the Compliance
Committee on the status of the program beginning August 7, 2013 (monthly for four
months and then quarterly).

Recommendation 13. We recommended that processes be strengthened to ensure
that IC and tuberculosis risk assessments are conducted prior to construction project
initiation.

Concur

Target date for completion: October 10, 2013




VA OIG Office of Healthcare Inspections                                                         23
                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL


Facility response: The multi-disciplinary team consisting of Infection Control,
Contracting Office Representative (COR) or Construction Crew Supervisor, and the
Safety Office will conduct and document the ICRA for all construction projects (in house
and by contract) during the design or planning stage of work (prior to bidding,
purchasing, or starting work) using the Construction Safety Committee approved
Pre-Construction Risk Assessment Form. All new construction projects will be
presented to the Construction Committee to document in the minutes that the IC and TB
risk assessments have been completed prior to construction project initiation.

Recommendation 14. We recommended that processes be strengthened to ensure
that infection surveillance activities related to construction projects are conducted and
documented in IC Committee minutes.

Concur

Target date for completion: September 10, 2013

Facility response: Construction Projects Infection Control Report will be added to the
monthly reporting schedule for the Infection Control Committee.            Breaches in
compliance with infection control measures and any related infection surveillance
activities resulting from construction/renovation projects inspections will be reported
monthly to the Infection Control Committee, tracked to completion, and documented in
the minutes.




VA OIG Office of Healthcare Inspections                                                         24
                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Karen McGoff-Yost, MSW, LCSW, Team Leader
Contributors            William Chirinos
                        David Griffith, RN
                        Douglas Henao, MS, RD
                        Alice Morales-Rullan, MSN, RN
                        Carol Torczon, MSN, ACNP
                        Toni Woodard, BS
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jackelinne Melendez, MPA
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         25
                                     CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Sunshine Healthcare Network (10N8)
Director, James A. Haley Veterans’ Hospital (673/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Bill Nelson, Marco Rubio
U.S. House of Representatives: Gus M. Bilirakis, Kathy Castor, Dennis Ross


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         26
                                               CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL
                                                                                                 Appendix G

                                                    Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
    Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
    Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
    September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
    January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
    Healthcare Central Service Material Management, and the Association for Professionals in Infection Control and
    Epidemiology.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                        27
                                               CAP Review of the James A. Haley Veterans’ Hospital, Tampa, FL



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration (OSHA) regulations.




VA OIG Office of Healthcare Inspections                                                                        28
